MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS

No. 21-

DIANDRA MARIE HARVEY,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.
Petitioner asks leave to file the attached Petition for Writ of Certiorari without
prepayment of costs and to proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma pauperis in the
following Courts:
The United States District Court for the Western District of Texas;
The United States Court of Appeals for the Fifth Circuit.
The undersigned counsel is a member of the Bar of this Court and has been appointed
by the United States District Court for the Southern District of Texas and the United States
Court of Appeals for the Fifth Circuit to represent Petitioner under the Criminal Justice Act
of 1964, 18 U.S.C. ยง 3006A(d)(6).

James Scott Sullivan
JAMES SCOTT SULLIVAN
LAW OFFICES OF J. SCOTT SULLIVAN
22211 I.H. 10 WEST, SUITE 1206
SAN ANTONIO, TEXAS 78257
(210) 722-2807

